U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Darrell Henry Williams v. Joe Coakley, Warden, No. 20-5172
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 14, 2020.
The government’s response is now due, after one extension, on September 23, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 23, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Because petitioner is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request

Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

20-5172
WILLIAMS, DARRELL HENRY
JOE COAKLEY, WARDEN

DARRELL HENRY WILLIAMS
PRISONER NO. 26008044
PO BOX 4000
SPRINGFIELD, MO 65831

